IN THE SUPREME COURT OF THE UNITED STATES

BALTAZAR-SEBASTIAN, MELECIA
Petitioner
vs.

No:

21-0400

USA
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

BRIAN H. FLETCHER
Acting Solicitor General
Counsel of Record
September 17, 2021
cc:

See Attached List

T. MURRY WHALEN
THE WHALEN FIRM
PO BOX 23222
JACKSON , MS 39225
ANDREW TIMOTHY TUTT
ARNOLD & PORTER KAYE SCHOLER
601 MASSACHUSETTS AVE. NW
WASHINGTON, DC 20001
OMODARE B. JUPITER
ASSISTANT FEDERAL PUBLIC
DEFENDER
200 SOUTH LAMAR STREET
SUITE 200-N
JACKSON, MS 39201
JEREMY JONG
3527 BANKS ST.
NEW ORLEANS, LA 70119

